                               Closeout for MOO0400 19


        On April 18, 2000, the Office of Inspector General (OIG) received a complaint
from an undergraduate student' (the complainant) alleging that a professor2 (the subject)
violated the confidentiality of NSF7speer review process in a class lecture, by identifying
PIS and institutions and critiquing the specific strengths and weaknesses of several
proposals. The complainant could not provide any personal lecture notes as evidence.

        In response to a letter from our office, the subject provided a master copy of the
lecture notes along with a thorough explanation of the spirit and purpose of this lecture.
After missing two classes for an NSF panel review, the subject started the subsequent
lecture with a general discussion of some interesting mathematical topics addressed at the
panel. The subject offered this lecture in order to stress the importance of the class
material to leading edge technology. Although the subject may have identified some of
the top institutions researching these problems, the subject did not "discuss the names of
any of the investigators, give any indication of the specific mathematical problems or
approaches in the proposals, or give any detail at all about these proposals." The master
lecture notes provided by the subject only identify general mathematical problems, but do
not identify PIS, institutions or specific mathematical details of any proposals.

        The complainant subsequently provided a copy of the lecture notes secured from a
fellow cla~smate.~  These lecture notes are essentially identical to the master lecture notes
provided by the subject, and do not identify PIS, institutions or specific mathematical
details of any proposals.

       After considering all information provided by the complainant and subject, there
is no evidence the subject violated the confidentiality of the NSF peer review process.
Accordingly, this case is closed and no further action will be taken by our office.


Cc:        Integrity, IG




1   [Footnote redacted].
    [Footnote redacted].
    [Footnote redacted].

                                      Page 1 of 1
